           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 CONTRACT WITH I. LEVY AND ASSOCIATES
         FOR DEVELOPMENT AND
  IMPLEMENTATION OF THE ELECTRONIC
          FOLDER INTERFACE AT
  DISABILITY DETERMINATION SERVICES

     September 2007   A-07-07-17104




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY

MEMORANDUM

Date:      September 24, 2007                                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Contract with I. Levy and Associates for Development and Implementation of the
           Electronic Folder Interface at Disability Determination Services (A-07-07-17104)


           OBJECTIVE
           Our objectives were to (1) review the services provided by I. Levy and Associates,
           Incorporated (I. Levy), under Contract Number 0600-02-60072, and the related costs
           charged to the Social Security Administration (SSA) for adherence to the negotiated
           contract terms and applicable regulations, and (2) ensure that SSA received the goods
           and services for which it contracted.

           BACKGROUND
           To allow Disability Determination Services (DDS) to support Electronic Disability (eDib)
           activities, 1 SSA contracted with I. Levy to develop and implement a generic folder
           interface that allows for the transfer of data between the eDib Folder and DDSs. The
           contract was completed between September 2002 and January 2007 at 30 DDSs for a
                                        2
           total cost of $23.7 million.

           The Office of Budget, Finance and Management's (OBFM) mission is to provide
           leadership and oversight on key SSA programs and initiatives. The Office of
           Acquisitions and Grants (OAG), a component within OBFM, is responsible for SSA
           procurement and contracting functions. OAG’s Contracting Officer is responsible for
           the award and administration of SSA contracts. OAG appoints an Agency authorized

           1
            eDib is a major Agency initiative to move all components involved in disability claims intake, adjudication,
           and review to an electronic business process through the use of an electronic disability folder. When the
           process is fully implemented, each component will be able to process claims by electronically accessing
           and retrieving information that is collected, produced, and stored as part of the electronic disability folder.
           2
             The 30 DDSs were Arizona, Arkansas, Colorado, Connecticut, District of Columbia, Florida, Georgia,
           Idaho, Indiana, Iowa, Kansas, Kentucky, Louisiana, Maryland, Massachusetts, Michigan, Montana,
           New Mexico, North Carolina, Ohio, Oklahoma, Puerto Rico, Rhode Island, South Dakota, Vermont,
           Virginia, Washington, West Virginia, Wisconsin, and the Federal DDS located in Maryland.
Page 2 - The Commissioner

representative as the Government Project Officer to monitor the technical requirements
of the contract, including oversight of the contractor’s progress and review of invoices.
The Project Officer for this contract was located in the Office of Disability
Systems (ODS). The contract also required that an employee within each DDS serve
as a Task Manager to manage all phases of the project at the DDS and report on the
status of the implementation to SSA. The Office of Finance (OF), also a component
within OBFM, directs SSA’s central accounting activities. Payments for the contract
were made by OF. See Appendix B for the scope and methodology of our review.

RESULTS OF REVIEW
We found that the services I. Levy provided and the costs charged to SSA that we
reviewed generally adhered to the terms of the contract and that SSA received the
goods and services for which it contracted. However, during our review, we found:

   •   I. Levy completed work outside the terms of the contract prior to receiving
       authorization.

   •   Weaknesses in the processes used by the Project Officer that resulted in
       payment of unallowable travel costs totaling $6,845.

   •   Some I. Levy contractor employees did not have personnel suitability
       background determinations performed.

UNAUTHORIZED WORK

We identified three instances where I. Levy completed work outside the terms of the
contract prior to receiving proper authorization. The work that was completed prior to
authorization totaled approximately $2.1 million. The following actions were taken by
OAG upon notification that I. Levy completed work that was not authorized in the
contract.

   •   In two of the three instances, it appears that I. Levy began the work on its own
       initiative. When OAG was notified by I. Levy that billing was ready for work that
       was completed but not covered by the contract, OAG instructed the Project
       Officer to submit a contract modification request. The Project Officer provided
       the modification request to OAG who approved the request and issued the
       modifications. According to OAG, when a contractor completes work on its own
       initiative, SSA is under no obligation to accept the contractor’s work or pay the
       contractor. If SSA chooses to accept the work, a contract modification will be
       executed allowing the contractor to be paid as it was in these two instances.
Page 3 - The Commissioner

      •   For the third instance, ODS authorized I. Levy to complete work that was outside
          the terms of the contract. ODS did not have authority to approve the work. 3
          Rather, ODS should have requested a modification from OAG that allowed the
          work. Upon receipt of invoices from I. Levy for the work outside the terms of the
          contract, the Project Officer initiated the ratification process. 4 Under the
          ratification process, the person who made the unauthorized contractual
          commitment must furnish OAG with all records and documents having to do with
          the action. 5 OAG reviewed the ratification request from the Project Officer, and
          eventually ratified the unauthorized commitment by issuing a contract
          modification. According to SSA instructions, the ratification process must be
          followed to approve or deny payment when a contractor is instructed by an
          unauthorized individual to complete work. 6

The contract with I. Levy states “Delivery or performance shall be made only as
authorized by orders issued in accordance with the Ordering clause.” 7 Therefore, the
contractor should have been aware that work outside the terms of the contract should
not be performed. Since I. Levy is still performing work for SSA under contract number
SS00-06-60143, it should remind I. Levy that work is not to be performed prior to
authorization by OAG. Further, SSA should remind all ODS Project Officers involved in
the procurement process not to enter into unauthorized commitments.




3
  Although Project Officers are informed of the proper procedures for the procurement process through
Administrative Instructions Manual System instructions, U.S. Department of Health and Human
Services (DHHS) Project Officers’ Contracting Handbook, and various training courses, these procedures
were not always followed. SSA utilizes the DHHS Project Officers’ Contracting Handbook, however, since
this is a DHHS document, references to specific DHHS policies do not apply to SSA.
4
  Ratification is the act of approving an unauthorized commitment. For the ratification process to be
completed, the person who made the unauthorized contractual commitment must furnish the Contracting
Officer with all records and documents having to do with the action, as well as a written statement of the
facts in the situation including statements as to why the normal procurement process was not used; the
work to be done; the estimated or agreed price; the source of available funding; and, information as to
whether the contractor has commenced performance. The Contracting Officer will review the information
supplied and forward it, with any additional information or comments, to the Head of Contracting Activity
(HCA) or a designee for evaluation and approval or disapproval. If ratification is authorized, the HCA will
return the file to the Contracting Officer for the proper issuance of a contract modification as well as the
ratification notice. DHHS Project Officers’ Contracting Handbook, Section V, Part I.c (2003).
5
 The ratification document identifies ODS as the one who made the unauthorized contractual
commitment rather than identifying an individual person.
6
    DHHS Project Officers’ Contracting Handbook, Section V, Part I.c (2003).

7
    Contract Number 0600-02-60072 D-5(b).
Page 4 - The Commissioner

TRAVEL COSTS

Of the 144 invoices we reviewed, 28 invoices included travel costs. We found that
policies regarding contractor reimbursement of travel costs were not followed for 17 of
the invoices (61 percent). Specifically, of the 28 invoices: 8

      •   13 invoices (46 percent) exceeded the per diem rates allowed by Federal Travel
          Regulations for lodging by approximately $4,047,

      •   11 invoices (39 percent) exceeded the per diem rates allowed by Federal Travel
          Regulations for meals and incidental expenses by approximately $1,770, and

      •   4 invoices (14 percent) did not have required supporting receipts for expenses
          totaling approximately $1,028.

The Project Officer is responsible for ensuring that services have been received and are
                                                           9
acceptable in accordance with the terms of the contract. According to the contract,
travel will be reimbursed on a cost reimbursement basis, not to exceed the amount
authorized in the contract. In addition, the rates (per diem, personal vehicle mileage,
etc.) at which the contractor will be reimbursed for travel shall be no greater than those
allowed by Federal Travel Regulations, current as of the time the travel occurs. Travel
expenses shall be reimbursed based on actual receipts to be included with invoice
submission in accordance with Federal Travel Regulations. Because the Project Officer
did not follow Federal Travel Regulations regarding allowable travel costs for lodging
and meals and incidentals, unallowable travel costs were paid totaling $6,845. The
Project Officer should ensure travel costs do not exceed Federal Travel Regulations or
the amount authorized in the contract.

SUITABILITY DETERMINATIONS

The Project Officer did not properly monitor contractor employees to ensure adherence
to Agency security policies. Our review found that of the 63 I. Levy employees who
worked on the contract, final suitability determinations were never obtained for
12 employees. 10 This occurred because the Project Officer did not maintain a list of
I. Levy employees working on the contract or a record of those who passed suitability




8
    We identified more than 1 type of error on 10 of the 28 invoices.
9
    DHHS Project Officers’ Contracting Handbook, Section V, Part E.3 (2003).
10
  According to the Center for Personnel Security, 5 of the 12 I. Levy employees had a favorable
prescreening, but final suitability determinations were never completed. The remaining seven individuals
did not have a prescreening.
Page 5 - The Commissioner

requirements. The Information Systems Security Handbook instructs Project Officers to
coordinate with the Security Officer to ensure that personnel suitability background
investigations are performed for contractor personnel. Furthermore, the Project Officer
is to ensure compliance with all contract provisions. 11 The contract requires suitability
screening for all persons performing on a contract who work with or use SSA systems.
In addition, the contract states that all contractor employees either working on-site at an
SSA facility, or having access to Agency programmatic or sensitive information, must
pass a suitability determination. 12 SSA should strengthen internal controls to ensure
that contractor personnel performing under contracts have obtained appropriate
background checks prior to beginning work on a contract. This recommendation was
made in our report The Social Security Administration’s Information Technology
Maintenance and Local Area Network Relocation Contract (A-14-07-17022), May 2007.
Therefore, we will not formally recommend corrective action.

CONCLUSION AND RECOMMENDATIONS

Although I. Levy and SSA generally adhered to the terms of the contract and SSA
received the contracted goods and services, we found that I. Levy completed work outside
the terms of the contract prior to authorization. In addition, improper monitoring by the
Project Officer resulted in payment of unallowable travel expenses. Further, some I. Levy
employees did not have suitability background determinations performed because they
were not properly monitored by the Project Officer.

Therefore, we recommend SSA:

      1. Remind I. Levy that work is not to be performed prior to authorization by OAG.

      2. Remind all ODS Project Officers involved in the procurement process not to
         enter into unauthorized commitments.

      3. Instruct Project Officers to verify that travel costs do not exceed Federal Travel
         Regulations or the amount authorized in the contract.




11
  The Office of Systems, Security Operations Management’s Information Systems Security Handbook,
Appendix B (2007).
12
     Contract Number 0600-02-60072 D-1.
Page 6 - The Commissioner

AGENCY COMMENTS

SSA agreed with our recommendations. SSA also provided technical comments which
we incorporated in the report as appropriate. The full text of SSA’s comments is
included in Appendix C.




                                           Patrick P. O’Carroll, Jr.
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
AIMS      Administrative Instructions Manual System
DDS       Disability Determination Service
DHHS      Department of Health and Human Services
eDib      Electronic Disability
HCA       Head of Contracting Activity
I. Levy   I. Levy and Associates, Incorporated
OAG       Office of Acquisitions and Grants
OBFM      Office of Budget, Finance and Management
ODS       Office of Disability Systems
OF        Office of Finance
Pub. L.   Public Law
SSA       Social Security Administration
U.S.C.    United States Code
                                                                                 Appendix B

Scope and Methodology
To accomplish our audit objectives, we:

•     Reviewed the contract between the Social Security Administration (SSA) and I. Levy
      and Associates, Incorporated (I. Levy) (Contract Number 0600-02-60072) to assess
      the contractor’s ability to meet and comply with the contract requirements.

•     Reviewed applicable sections of the Federal Acquisition Regulations, Administrative
      Instructions Manual System, SSA Acquisition Regulations, Department of Health
      and Human Services Project Officers’ Contracting Handbook, and the Prompt
      Payment Act. 1

•     Interviewed the SSA Project Officer in the Office of Disability Systems (ODS), the
      Contracting Officers in the Office of Acquisitions and Grants (OAG), and staff in the
      Office of Finance (OF) to discuss the required contract deliverables and payment
      terms.

•     Reviewed the records used to monitor the contractor’s performance and assessed
      whether SSA and I. Levy performed in accordance with the contract.

•     Obtained a list of the 30 Disability Determination Services (DDS) covered by the
      contract from ODS. We selected six DDSs based on I. Levy’s estimate of the level
      of programming complexity and services required for each to ensure the goods and
                                                       2
      services outlined in the contract were received.

•     Obtained lists of invoices for this contract from ODS and OF. The population
      included 635 invoices that I. Levy charged to SSA. From these invoices we
      identified the total amount paid to I. Levy, including any interest payments.




1
    The Prompt Payment Act, as amended, Pub. L. No. 97-177, 31 U.S.C. § 3901 et. seq.
2
    The six DDSs were Connecticut, Idaho, Louisiana, Montana, Ohio and Washington.


                                                 B-1
•   We selected 144 (23 percent) of the 635 invoices for review. The invoices selected
    totaled $15.6 million, which is 66 percent of the total $23.7 million paid on the
    contract. The sample included:

        •   the 10 smallest invoices,
        •   50 invoices with amounts between $2,000 and $95,000,
        •   all 80 invoices over $95,000, and
        •   4 questionable invoices. 3

•   We reviewed the 144 sampled invoices to ensure:

        •   SSA paid amounts approved in the contract,
        •   invoices were approved by the Project Officer prior to payment of invoices,
        •   SSA paid invoices timely in accordance with the terms of the contract, and
        •   invoice amounts were recorded correctly.

We conducted our audit in Kansas City, Missouri and Baltimore, Maryland from
November 2006 through March 2007. We determined that the data used for this audit
was sufficiently reliable to meet our audit objective. The entities audited were OAG and
OF within the Office of Budget, Finance and Management and ODS within the Office of
Systems. We conducted our audit in accordance with generally accepted government
auditing standards.




3
  These four invoices were identified as possible duplicates and could not be resolved without further
review.


                                                  B-2
                  Appendix C

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      August 30, 2007                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, “Contract with I. Levy and
           Associates for Development and Implementation of the Electronic Folder Interface at
           Disability Determination Services” (A-07-07-17104)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                     C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT
REPORT, “CONTRACT WITH I. LEVY AND ASSOCIATES FOR
DEVELOPMENT AND IMPLEMENTATION OF THE ELECTRONIC FOLDER
INTERFACE AT DISABILITY DETERMINATION SERVICES ”(A-07-07-17104)

Thank you for the opportunity to review and comment on the draft report. We appreciate
your conducting this audit of our contract with I. Levy and Associates for development
and implementation of the electronic folder interface at Disability Determination
Services.

Recommendation 1

Remind I. Levy that work is not to be performed prior to authorization by the Office of
Acquisition and Grants (OAG).

Comment

We agree. The contracting officer sent a reminder to I. Levy on August 3, 2007. In
addition, we will provide I. Levy with a copy of this audit report.

Recommendation 2

Remind all Office of Disability Systems project officers involved in the procurement
process not to enter into unauthorized commitments.

Comment

We agree. The project officers and project managers will be reminded of the requirement
to obtain proper authorization before work beyond the existing contract is conducted. We
plan to explore the possibility of developing a streamlined authorization process so that
identified work is not delayed.

Recommendation 3

Instruct project officers to verify that travel costs do not exceed Federal Travel
Regulations or the amount authorized in the contract.

Comment

We agree. We will issue instructions to contracting officers to provide such information
to their project officers when travel will be included as a cost reimbursement line item in
an order or contract. We will issue such a reminder by September 14, 2007.




                                             C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Shannon Agee, Audit Manager (816) 936-5590

Acknowledgments

In addition to those named above:

   Khristan Kaufman, Auditor-In-Charge

   Katherine Wunsch, Auditor

   Kenneth Bennett, IT Specialist


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-07-17104.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
